No. 20-1500

IN THE
SUPREME COURT OF THE UNITED STATES

MACHIAVELLIFARRAKHAN SIBERIUS
Plaintiff - Petitioner,
v.
AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.; PRESSLEY RIDGE;
WEST VIRGINIA DEPARTMENT OF EDUCATION, et al.
Defendants - Respondents,

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

PETITION FOR REHEARING

Machiavelli Farrakhan Siberius
P.O.Box 1162
Parkersburg, WV 26102
Telephone: (304) 210-6097
MFSiberius@hotmail.com
August 10, 2021

Machiavelli Farrakhan Siberius,
ProSe

TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

PETITION FOR REHEARING

1

REASONS FOR GRANTING THE PETITION.

2

I.

The Procedural Due Process and the Due Process Clause in Motions for
Substituting Parties by the Plaintiff.

II.

2

The Stare Decisis Legal Doctrine Not Prudently Examined by the District
Judge or Panel

5

CONCLUSION.

9

i

TABLE OF AUTHORITIES
Cases
Alden v. Maine, 527 U.S. 706, 715 (1999)

7

Arizona v. Rumsey, 467 U. S. 203, 212 (1984)

1

Citizens United v. Federal Election Comm’n, 558 U.S. 310, 363 (2010)

.6

Conway v. Town of Wilton, 238 Conn. 653, 680 A.2d 242 (1996)

8

Daily v. Bechtel Corporation, 207 S.E.2d 173, (W.Va, 1974)

6

Data Processing Svc. Orgs. v. Camp, 397 U.S. 150 (1970)

4

Frazier v. State of Tennessee (Dissenting), No. 06-0350, (Term., 2016)

6

Fuentes v. Shevin, 407 U.S. 67 (1972)

4

Gamble vs United States, 587 U.S. 11 (2019)

1,7

Guild v. Eager, 17 Mass. 615, 622 (1822)

7

Harris v. Quinn, 134 S. Ct. 2618, 2651 (2014)

6

Helvering v. Hallock, 309 U.S. 106, 119 (1940))

6

Hummel v. Marten Transport, Ltd., 282
Conn. 477, 494, 923 A2d 657 (2007)
Kimble v. Marvel Entm’t, LLG, 135 S. Ct. 2401, 2409 (2015)

8
.6

Kisor v. Wilkie, Secretary of Veterans Affairs, 588 U.S. 26 (2019)

7

Kwock Jan Fat v. White, 253 U.S. 454 (1920)

3

Lisa Kerr v. Marshall University Board of Governors,
No. 15-1473, (4th Circ., 2016)

5

Logan v. Zimmerman Brush Co., 455 U.S. 422 (1982)

4

Mathews v. Eldridge, 424 U.S. 319 (1976)

4
ii

McDowell v. Oyer, 21 Pa. 417, 423 (1853)

7

Michigan v. Bay Mills Indian Cmty., 134 S. Ct. 2024, 2036 (2014))

6

Montejo v. Louisiana, 556 U.S. 778, 792- 793 (2009)

6

Morrissey v. Brewer, 408 U.S. 471

4

Nebbia v. New York, 291 U.S. 502 (1934)

5

Payne v. Tennessee, 501 U. S. 808, 827 (1991)

1

People v. Bing, 76 N.Y.2d at 338.

8

People v. Crespo, Court of Appeals, Chief Judge DiFiore,
06849, No. 27 (N.Y., 2018)

8

People v. Quimby, 381 P.2D 280 (Colorado, 1963)

6

Ramos v. Louisiana, 590 U.S. 1 (2020),.

7, 8

Reich v. Shiloh True Light Church of Christ,
895 F.Supp. 799, 819 (W.D.N.C. 1995)

5

Security Trust and Safety Vault Co. v. City of Lexington,
203 U.S. 323, 325, 333 (1906)

5

Siberius v. American Public University Sys. (19-7400)

5

State v. Salomon, 287 Conn. 509, 949 A.2d 1092 (Conn. 2008)

7

United States v. Morrison, 529 U.S. 599 (2000)

7

Statutes
Fair Labor Standards Act,

1,9

5 USC § 702

.4

28 USC § 2072

3

42 USC § 1983

1,9
m

Court Rules
Fed R. Civ.Proc. 25(d)

1, 2,3

Fed. R. App. P. 43(c)

2,3

Supreme Court Rule 44.2.

1,2

Constitution of the United States
Fifth Amendment,

1, 3,4

Fourteenth Amendment, Section 1

1,3

Other Authorities
Precedents of the U.S. House of Representatives (2017 series). 115th Congress, 1st
Session, House Document No. 115-62

.6

Alexander, Hamilton. The Federalist Papers No. 78

6

IV

PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.2, Machiavelli Farrakhan Siberius
respectfully petitions for a rehearing of the petition for a writ of certiorari (No. 20*
1500), which was denied by the Court on June 21, 2021. Mr. Siberius moves this full
nine-member Court to review the procedural due process, the Due Process Clause of
the 5th and 14th Amendment, and the infringement of constitutionally protected
rights for litigants as defined by the Supreme Court; specifically, when the District
Judge and Three-Judge Panel declined to substitute parties in the civil action, as
defined in Federal Rides of Civil Procedure 25(d) and Appellant Rules of the Fourth
Circuit for the plaintiff-appellant/petitioner.
Considering the many erroneous applied cases in the District Judge’s opinion,
the liberal and occasionally random application of legal apparatuses, and oversight
in applying stare decisis that violated the plaintiffs rights that is interceded and
explicated in the District Judge’s opinion of FLSA and 42 U.S.C. § 1983. In Gamble
vs United States, 587 U.S. 11 (2019), stare decisis “promotes the evenhanded,
predictable, and consistent development of legal principles, fosters reliance on
judicial decisions, and contributes to the actual and perceived integrity of the
judicial process.” Payne v. Tennessee, 501 U. S. 808, 827 (1991). Of course, it is also
important to be right, especially on constitutional matters, where Congress cannot
override our errors by ordinary legislation. But even in constitutional cases, a
departure from precedent “demands special justification.” Arizona v. Rumsey, 467
U. S. 203, 212 (1984).

1

Pursuant to Supreme Court Rule 44.2, this petition for rehearing is filed
within 25 days of this Court’s decision in this case, and within 15 days of the Clerk’s
compliance orders.
REASONS FOR GRANTING THE PETITION
I. The Procedural Due Process and the Due Process Clause
in Motions for Substituting Parties by the Plaintiff.
Intro- Notably, a defendant is listed by its headquarters name in the case
caption, because the facility in West Virginia, Pressley Ridge at White Oak was an
employer and school that had been shutdown before the year 2018, when the
lawsuit was filed. The correct facility of incident was fisted throughout the
complaint, yet the postal mail and responsibility of a civil action had to be
redirected to the headquarters in Pittsburgh, Pennsylvania. In Fed.Rule Civ.Proc.
25(d) is exemplar of using a substitution of parties, due to the connection and
circumstance surrounding a defendant. And to Fed.Rule App.Proc. 43(c) states “An
order of substitution may be entered at any time, but failure to enter an order does
not affect the substitution.” The complaint had clearly explained the reasoning for
the substitution of parties, the former address of defendant was fisted, so for
oversight or disregarding these facts and allegations is not only a miscalculation of
law but a de novo decision of pure laziness, and further carelessness and prejudicial
in examination of this complaint. The party Pressley Ridge at White Oak not being
fisted in the case caption was one of the primary grounds for a dismissal in
Memorandum Opinion and Order.

2

Argument- Federal Rule of Civil Procedure 25(d) and Federal Rule of
Appeals Procedure 43(c) are rules that the United States Court of Appeals for the
Fourth Circuit have agreed upon and created with their judicial power for
rulemaking ability in the administration of their Federal Judiciary. The
court’s Rules Advisory Committee Members, consisting of an attorney from each of
the states constituting the Fourth Circuit, made recommendations and advised the
court concerning proposed changes to the local rules. The Supreme Court has the
power to prescribe general rules of practice in the Fourth Circuit as advised in Title
28 U.S. Code § 2072, and a copy of those amendments for Federal Rules is served to
Congress.
The plaintiff/appellant/petitioner Machiavelli Farrakhan Siberius was not
given a procedural due process, which requires a fair procedure, to assure
compliance with law, due to the complained about violations involving a breach of
the Federal Rule C.P. 25(d) and FR. Appeals Procedure 43(c) (4th Circ.) that was not
followed within the procedural rights granted to the plaintiff, which is within the
procedural framework defined by the rules for substituting a party in a civil action
and proceeding. The Due Process Clause of the 5th and 14th Amendments were
infringed upon by the judicial process that was not conformed to on behalf of Mr.
Siberius, to the legal framework and process prescribed in the U.S.C.A. Fourth
Circuit and Federal Rules of Civil Procedure. See, e g. Kwock Jan Fat v. White, 253
U.S. 454 (1920), (“proceedings [that are] manifestly unfair”).

3

The rights as a plaintiff/appellant suing in this Civil Action was infringed
upon by the District Judge and Three-Judge Panel that refused to comply and
declined to follow the rules for substituting defendants as requested and justified by
the plaintiff in the Amended Complaint [ECF No. 29]. See, e.g., Logan v.
Zimmerman Brush Co., 455 U.S. 422 (1982), (Court held that a legal cause of action
was a kind of property protected by the Due Process Clause). See, e.g., Fuentes v.
Shevin, 407 U.S. 67 (1972); Data Processing Svc. Orgs. v. Camp, 397 U.S. 150
(1970), Syl. Pt. 1(b), “The interest sought to be protected by petitioners is arguably
within the one of interests to be protected or regulated by the statute, and
petitioners are "aggrieved" persons under § 702 of the Administrative Procedure
Act.” Po. 397 U.S. 153-156. 397 U.S. 157.
In Mathews v. Eldridge, 424 U.S. 319 (1976), Syl. Pt. 2(a), (a) “[D]ue
process is flexible and calls for such procedural protections as the particular
situation demands,” Morrissey v. Brewer, 408 U.S. 471, 408 U.S. 481.
Resolution of the issue here involving the constitutional sufficiency of
administrative procedures prior to the initial termination of benefits and
pending review, requires consideration of three factors: (1) the private
interest that will be affected by the official action; (2) the risk of an erroneous
deprivation of such interest through the procedures used, and probable value,
if any, of additional procedural safeguards; and (3) the Government’s
interest, including the fiscal and administrative burdens that the additional
or substitute procedures would entail. Pp. 424 U.S. 332-335, Syl. Pt. 2(e)
“...the prescribed procedures not only provide the claimant with an effective
process for asserting his claim prior to any administrative action, but also
assure a right to an evidentiary hearing, as well as subsequent judicial
review before the denial of his claim becomes final, there is no deprivation of
procedural due process.” Pp. 424 U.S. 347-349.
Procedural rights address the government’s obligation to ensure that legal
procedures are carried out in a fair and just manner. The Fifth Amendment's due
process clause, applicable as against the federal government, provides that no
4

person shall...be deprived of hfe, liberty, or property, without due process of law;
This often require procedures to determine the government's compliance with
statutory or common law requisites for a deprivation. See, e g., Security Trust and
Safety Vault Co. v. City of Lexington, 203 U.S. 323, 325, 333 (1906). Nevertheless, it
held that when the state undertakes to restrain unlawful advocacy it must provide
adequate safeguards to prevent infringement of constitutionally protected rights. In
Nebbia v. New York, 291 U.S. 502 (1934) “requirements of due process were not met
because the laws were found arbitrary in their operation and effect... judicial
determination to that effect renders a court functus officio.” P. 291 U.S. 536.
II. The Stare Decisis Legal Doctrine Not Prudently Examined
by the District Judge or Panel.
Intro- A Panel for the United States Courts of Appeals for the Fourth Circuit
had disagreed with other landmark cases, disregarded adjacent federal jurisdictions
with the circuit decisions on equivocal matters, and overruled Reich v. Shiloh True
Light Church of Christ, 895 F.Supp. 799, 819 (W.D.N.C. 1995) with a case precedent
founded in Lisa Kerr v. Marshall University Board of Governors, No. 15-1473, (4th
Circ., 2016). In Siberius v. American Public University Sys. (19-7400), the Fourth
Circuit had disagreed with the Eleventh Circuit, Sixth Circuit, and Second Circuit
in constitutional matters and case precedence that was founded in numerous cases
listed in a writ of certiorari to the Supreme Court. There was a complete disregard
for Stare Decisis by the District Judge, and an arbitrary sermon on outdated and
irrelevant court maxims that was affirmed by an already controversial Panel.

5

Argument- The U.S. House of Representatives said, “In resolving questions of
order, the Speaker and other presiding officers of the House adhere to the
jurisprudential principle of stare decisis—a commitment to stand by earlier
decisions.”—115th Congress, 1st Session, House Document No. 115—62 (2017). In
Gambler v. United States, 587 U.S. 3 (2019), the Court currently views stare decisis
as a ‘“principle of policy”’ that balances several factors to decide whether the scales
tip in favor of overruling precedent. Citizens United v. Federal Election Comm’n,
558 U.S. 310, 363 (2010) (quoting Helvering v. Hallock, 309 U.S. 106, 119 (1940)).
Among these factors are the “workability” of the standard, “the antiquity of the
precedent, the reliance interests at stake, and of course whether the decision was
well reasoned.” Montejo v. Louisiana, 556 U.S. 778, 792- 793 (2009). Id. at 3. It
refers to the duty to exercise “judicial discretion” as distinct from “arbitrary
discretion.” The Federalist No. 78, at 468, 471. Id. at 4.
People v. Quimby, 381 P.2D 280 (Colorado, 1963) “Stare decisis in its true sense
applies to decisions involving the common law.” Frazier v. State of Tennessee
(Dissenting), No. 06-0350, (Tenn., 2016): “The principle of stare decisis, that the
Court should follow precedential decisions, is “a foundation stone of the rule of law.”
Kimble v. Marvel Entm’t, LLC, 135 S. Ct. 2401, 2409 (2015) (quoting Michigan v.
Bay Mills Indian Cmty., 134 S. Ct. 2024, 2036 (2014)) (internal quotation marks
omitted); Harris v. Quinn, 134 S. Ct. 2618, 2651 (2014) (same). Daily v. Bechtel
Corporation, 207 S.E.2d 173, (W.Va, 1974), Stare decisis is not a rule of law but is a
matter of judicial policy... In the rare case when it clearly is apparent that an error

6

has been made or that the application of an outmoded rule, due to changing
conditions, results in injustice, deviation from that policy is warranted.” Id. at 173.
In United States v. Morrison, 529 U.S. 599 (2000), “The force of the doctrine
of stare decisis behind these decisions stems not only from the length of time they
have been on the books, but also from the insight attributable to the Members of the
Court at that time, who all had intimate knowledge and familiarity with the events
surrounding the Amendment’s adoption. Kisor v. Wilkie, Secretary of Veterans
Affairs, 588 U.S. 26 (2019), Any departure from the doctrine demands “special
justification”— something more than “an argument that the precedent was wrongly
decided.”
In Gambler 587 U.S., When a “former decision is manifestly absurd or unjust”
or fails to conform to reason, it is not simply “bad law,” but “not law” at all. Id at 7.
See, e.g., McDowell v. Oyer, 21 Pa. 417, 423 (1853); Guild v. Eager, 17 Mass. 615,
622 (1822). In Ramos v. Louisiana, 590 U.S. 1 (2020), the doctrine reflects respect
for the accumulated wisdom of judges who have previously tried to solve the same
problem. In 1765, Blackstone—“the preeminent authority on English law for the
founding generation,” Alden v. Maine, 527 U.S. 706, 715 (1999)—wrote that “it is an
established rule to abide by former precedents,” to “keep the scale of justice even
and steady, and not liable to waver with every new judge’s opinion.”
State v. Salomon, 287 Conn. 509, 949 A.2d 1092 (Conn. 2008); “It is the most
important application of a theory of decision-making consistency in our legal culture
and ... is an obvious manifestation of the notion that decision-making consistency

7

itself has normative value.” (Internal quotation marks omitted.) Hummel v. Marten
Transport, Ltd., 282 Conn. 477, 494, 923 A2d 657 (2007). [SJtare decisis ... serve[s]
the cause of stability and certainty in the law—a condition indispensable to any
well-ordered system of jurisprudence.” Conway v. Town of Wilton, 238 Conn. 653,
680 A.2d 242 (1996). Id. at 659. Quoting People v. Crespo, Court of Appeals, Chief
Judge DiFiore, 06849, No. 27 (N.Y., 2018) Rivera J. (Dissenting), 11(B): “Underlying
the doctrine is the important role of the Court as a branch of government greater
than its members. As the Court has remarked, "[stare decisis] rests upon the
principle that a court is an institution, not merely a collection of individuals, and
that governing rules of law do not change merely because the personnel of the court
changes" (Bing, 76 NY2d at 338). Id. at 9.
The stare decisis factors identified by the Court in its past cases include:
the quality of the precedent’s reasoning;
the precedent’s consistency and coherence with previous or
subsequent decisions;
changed law since the prior decision;
changed facts since the prior decision;
the workability of the precedent;
the reliance interests of those who have relied on the precedent;
the age of the precedent.
Quoting Ramos v. Louisiana, 590 U.S. 7 (2020), in the above chart.**

8

In the District Judge’s affirmed opinion (2:18-cv-01125, 4th Cir. 2019), this
has departed from many federal jurisdiction’s case precedence on related issues that
are relevant to the plaintiffs civil action. The District Judge disobeyed Supreme
Court landmark cases, and the legal principles that stare decisis would identify that
relate to an interpretation, defined meaning(s) and the operation of law in the Fair
Labor Standards Act and 42 U.S. Code § 1983.
CONCLUSION
For the foregoing reasons, the petition for rehearing should be granted.

Respectfully Submitted,

4$/.L JjhP/Pixfi
Machiavelli Farrakhan Siberius,
Pro Se Litigant.

August 10, 2021
9

